No.
IN THE

SUPREME COURT OF THE UNITED STATES

RONALD LEWIS COLEMAN, JR.,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

Scott Graham
Counsel of Record for Petitioner
SCOTT GRAHAM PLLC
1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585
E-mail: sgraham@scottgrahamplle.com
CERTIFICATE OF SERVICE
Undersigned counsel certifies that on January 20, 2021, as required by S. Ct.
R. 29(4)(a) & (5)(b), he served the MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by delivery to a third-party commercial carrier for delivery within 3 calendar
days. The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

Andrew B. Birge

United States Attorney

Davin M. Reust

Assistant United States Attorney
Post Office Box 208

Grand Rapids, MI 49501-0208
(616) 456-2404

Date: January 20, 2021 2 Kk go

Scott Graham

Counsel of Record for

Petitioner Ronald Lewis Coleman, Jr.
SCOTT GRAHAM PLLC

1911 West Centre Avenue, Suite C
Portage, Michigan 49024-5399
Telephone: 269.327.0585

E-mail: sgraham@scottgrahampllc.com
